416 Florida Avenue NW #26152
Washington, DC 20001
Telephone: (202) 455-4399
E-mail: sam@rightsbehindbars.org

December 4, 2020
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: McCoy v. Alamu, Case No. 20-31
Dear Mr. Harris,
Respondents filed their brief in opposition to certiorari in the above-captioned
case on November 25, 2020. The first distribution date for paid petitions following the
14-day grace-period is December 16, 2020.
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully requests
that the Court delay distribution of this petition by 14 days, until the Court’s
December 30, 2020 distribution date. Petitioner requests this additional time to file
a certiorari reply based on substantial disturbances caused by the COVID-19
outbreak. This request will cause the case to be rescheduled from the January 8, 2021
conference to the January 15, 2021 conference.
Respondents do not oppose this request.
Very truly yours,
Samuel Weiss
Counsel for Petitioner

cc: Kyle Hawkins, Counsel for Respondents

